1. Agreement. These regulations govern the possession and use of credit cards (“card”) issued by Valley Credit
Union (“Issuer”). Each person who applies for a credit card and in whose name the card is issued (“Holder”)
consents and agrees to these regulations and to the terms contained on the credit cards, sales drafts, credit
adjustment memos and cash advance drafts, signed by or given to Holder or any authorized user of Holder’s cards.
When credit cards are issued upon the application of two or more persons, all such persons shall be jointly and
severally liable as Holders. The provisions of these regulations, as amended from time to time, govern Holder’s
obligations, notwithstanding any additional or different terms contained in sales drafts, credit adjustment memos,
cash advance drafts or other forms signed by or given to Holder or any user of Holder ‘s cards to evidence a credit
card transaction. Holder authorizes an investigation of Holder’s credit standing prior to the issuance of a credit card
to Holder and at any time thereafter and authorizes disclosure of information to third parties relating to Holder’s
credit standing. These regulations apply to all credit cards issued to Holder or to others on Holder’s authorization
and to any user of Holder’s cards.
2. Membership Fees. As a condition of participation in the issuer’s credit plan and the issuance of a card, Holder
agrees that there is no annual membership fee for VISA consumer and business accounts. Please see Rates and
Fees Disclosure Table for fees charged.
3. Use of Card. Credit for purchases from a merchant or a cash advance from a participating financial institution
may be obtained by Holder or an authorized user of Holder’s card presenting one of Holder’s cards to the merchant
or participating financial institution and, if requested, by providing the proper identifying information and signing
the appropriate drafts. Failure to sign a draft does not relieve the Holder of liability for purchases made or cash
received. The use of this card for illegal transactions is prohibited. The card may also be used to obtain cash
advances from certain automated equipment provided it is used with Holder’s correct Personal Identification
Number (“PIN”) issued to Holder. Terminals or terminal operators may have limits on the amounts or frequency of
cash withdrawals. Holder will not be liable for the unauthorized use of the card or PIN issued to Holder which
occurs before issuer receives notification orally or in writing of loss, theft or possible unauthorized use of a card or
PIN. Lost or stolen cards or PINS should be reported immediately to Issuer by notifying CUSTOMER SERVICE, P.O.
Box 31535, Tampa, FL 33631-3535, and Telephone (866) 839-3485.
4. Use of Valley Credit Union card Checks. Credit obtained by use of a Balance Transfer Check shall be treated
as a credit purchase. Credit obtained by use of Letter Check or Statement Check shall be treated as a cash
advance.
5. Credit Line. Holder will from time to time be informed of the amount of the approved credit line established for
Holder, and Holder covenants not to make credit purchases or borrowings in excess of that amount. Holder is liable
for all purchases and borrowings made with Holder’s cards by Holder or by anyone authorized to use Holder’s
cards.
6. Payment. Holder will be furnished a monthly statement for each billing period at the end of which there is an
undisputed debit or credit balance of $1.00 or more. Holder shall pay within 25 days after each statement Closing
Date either (a) the full amount billed (“New Balance”) or, at Holder’s option, (b) a minimum Payment of 25.00 of
the New Balance, whichever is greater. Payments may be mailed to VISA , P.O. Box 31279, Tampa, FL, 336313279. Payments may be made, in person, at a Valley Credit Union office. Payments received after 5:00 p.m.
on any processing day or at any time on any non processing day will be considered as payments made
on the following processing day. All payments by Holder will be applied first to payment of Interest Charges in
the order of their entry to the account, second to additional fees and credit insurance charges, if any, in the order
of their entry to the account, third to previously billed cash advances, purchases and other similar charges in the
order of their entry to the account, and then to current cash advances, purchases and other similar charges in the
order of their entry to the account.
7. Interest Charges. Holder shall pay Interest Charges as shown on Holder’s monthly statements, for each billing
period in which there is a cash advance or the Previous Balance is not paid in full prior to the Closing Date of the
billing statement. For cash advance fees, please see the Rates and Fees Disclosure Table. We figure the Interest
Charges on your account by applying the monthly Periodic Rate to the entire “Balance Subject to Interest Rate.”
The additional charge for cash advances shall not apply to any cash advance obtained under a separate credit
agreement with Holder and written in connection with these regulations. The “Balance Subject to Interest Rate” is
the “average daily balance,” of the account (including current transaction). To get the “average daily balance,” we
take the beginning balance of the account each day, add any new cash advances, credit purchases and other
charges, and subtract any payments or credits, unpaid late charges, unpaid membership fees and unpaid Interest
Charges. This gives us the daily balance. Then, we add up all of the daily balances for the billing cycle and divide
the total by the number of days in the billing cycle. This gives us the “AVERAGE DAILY BALANCE.” Interest
Charges for credit purchases begin on the date the purchase is posted to the account unless the Previous Balance
shown on the statement is paid in full prior to the Closing Date of the statement. Credit purchases made during the
statement period and the Previous Balance will be excluded from the calculation of the “average daily balance” if

the Previous Balance shown on the front of the statement was paid in full prior to the Closing Date of the
statement. The Interest Charges for cash advances begin on the date the advance is posted to the account. Holder
may avoid additional Interest Charges on an account by paying in full the New Balance shown on the account’s
monthly statement within 25 days after the Closing Date for that statement.
8. Variable Annual Percentage Rate. The current monthly Periodic Rate and corresponding ANNUAL
PERCENTAGE RATE for new accounts are disclosed on the accompanying card mailer. These rates may vary
monthly and shall be adjusted on the first day of each billing period (“Change Date”). The ANNUAL PERCENTAGE
RATE on each Change Date shall equal the highest prime rate published in The Wall Street Journal “Money Rates”
tables on the last date of publication in the calendar month preceding each Change Date (“Index Rate”), PLUS a
Margin. For more information on current margin(s), please refer to the Rates and Fees Disclosure Table. The
monthly Periodic Rate is 1/12th of the ANNUAL PERCENTAGE RATE. Beginning on the date an adjustment in the
rate is effective and until the next Change Date, the monthly Periodic Rate then in effect will be applied to the
balance in the account to determine the Interest Charges. An adjustment in the monthly Periodic Rate and
corresponding ANNUAL PERCENTAGE RATE will apply both to the outstanding balances in the account and to
new cash advances, (including any balance transfers from other credit card accounts), credit purchases, and other
charges. An increase or decrease in the Index Rate will cause and increase or decrease in the monthly Periodic
Rate and corresponding ANNUAL PERCENTAGE RATE and may increase the amount and number of minimum
payments. If the Index Rate ceases to be made available, Issuer may substitute a substantially similar index and
margin.
9. How We Will Calculate Your Variable APRs: We calculate variable APRs by adding a margin to the highest
U.S. Prime Rate published in the Money Rates section of The Wall Street Journal two business days (not weekends
or federal holidays) before the closing date shown on your billing statement. The APR may increase or decrease
each month if the Prime Rate changes. Any new rate will be applied as of the first day of your billing cycle during
which the Prime Rate has changed. If the APR increases, you will pay a higher interest charge and may pay a
higher minimum payment. The Prime Rate is simply a reference index and is not the lowest interest rate available.
If The Wall Street Journal stops publishing the Prime Rate, we will select a similar reference rate.
10. Additional Fees. For a listing of fees charged in association with this card, please see the Rates and Fees
Disclosure Table accompanying this Agreement. These charges will not be imposed if Holder’s request is in
connection with or delivery of the documents in response to an alleged billing error under Regulations E or Z issued
by the Board of Governors of the Federal Reserve System. Fees imposed will be posted to Holder’s account.
11. Security Interest. All credit advanced to Holder for credit purchases or cash advances constitutes loans made
by Issuer to Holder in the state of Alabama . Issuer disclaims as security for loans made to Holder under these
regulations any security interest it may at any time have in household goods or real property. Except as disclaimed
above, loans made to Holder after the effective date of these regulations may be secured by collateral given by any
Holder to secure other loans from Issuer.
12. Foreign Transactions. If a Holder’s card is used to effect a transaction in a foreign currency, the transaction
amount will be converted to U.S. dollars by VISA International, VISA converts currency to U.S. dollars using either
the government mandated exchange rate or the wholesale exchange rate, in effect one day before the date of the
conversion, as applicable. The exchange rate is increased by 1% if the conversion is made in connection with a
charge to an account and decreased by 1% if the conversion is made in connection with a credit to an account. The
date of conversion by VISA may differ from the purchase date and the posting date identified in the monthly
statement for the account. Holder agrees to pay charges and accept credits for the converted transaction amounts
in accordance with the terms of this paragraph.
13. Disputes. Issuer is not responsible for refusal by any merchant, financial institution or automated equipment
to honor or accept a card. Except as provided in the Federal Truth-in-Lending laws(as indicated in the Summary of
Billing Rights below), Issuer has no responsibility for merchandise or services obtained by Holder with a card and
any dispute concerning merchandise or services will be settled between Holder and the merchant concerned.
16. Default. Holder covenants to observe and comply with these regulations and covenants not to permit an event
of default to occur. Upon the occurrence of any one or more of the following events of default: (a) Holder fails to
pay at least the Minimum Payment when due on two occasions within any 12-month period; or (b) Holder dies,
ceases to exist, changes residency to another state, becomes insolvent or the subject of bankruptcy or insolvency
proceedings or fails to observe any covenant or duty contained in these regulations, if such event or breach
materially impairs Holder’s ability to pay amounts due; the full amount of Holder’s account for which the default
occurred (including unpaid Interest Charges) shall, at Issuer’s option become immediately due and payable if
Holder does not cure the default within 15 calendar days after notice is mailed to the address of Holder, or given as
otherwise provided by law. Issuer has this right, without notice and opportunity to cure; if the default is the

Holder’s third default within 12 months and the Holder is notified of the prior two defaults and the Holder cured
those defaults.
17. Termination. Holder’s consent to these regulations may be terminated at any time by surrendering the cards
issued to Holder or at Holder’s written request, but such termination shall not affect Holder’s obligations as to any
balances or charges outstanding at the time of termination. Termination by any Holder shall be binding on each
person in whose name the card is issued. If Holder’s spouse terminates this credit plan, the full amount of Holder’s
account (including unpaid Interest Charges) may be declared immediately due and payable. Issuer may terminate
Holder’s privilege to use the cards if Holder moves out of the service area of Issuer, as defined by Issuer from time
to time. Unless sooner terminated, the privilege to use the cards shall expire on the date shown on the cards. At
any time, without liability to Holder and without affecting Holder’s liability for credit previously extended, Holder’s
privilege to use the cards may be revoked or limited to the extent not prohibited by law. The cards are and shall
remain the property of Issuer and Holder agrees to surrender them to Issuer upon demand.
18. Amendments. Issuer may amend these regulations from time to time by sending Holder advance written
notice not less than 90 days prior to the effective date for any change that is either adverse to Holder’s outstanding
balance or increases certain fees, as required by Alabama Statute from time to time, or not less than 15 days
prior to the effective date for other changes, or as may otherwise be required or permitted by law. To the extent
that Issuer indicates in the notice and that the law permits, amendments will apply to Holder’s existing account
balance as well as to future transactions. Notices are deemed given when mailed by Issuer to any Holder to the
current address for mailing monthly statements. Invalidity of any provision of these regulations shall not affect the
validity of any other provisions unless otherwise provided by the Alabama Statute.
19. Governing Law. Holder agrees to be governed by the Alabama Statute with respect to all aspects of the
transactions arising under these regulations. All statutory references are to the statutes as they may be
renumbered or amended from time to time.

